No

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2O2T

EDWARD THOMAS JAMES, APPLICANT/PETITIONER

v

STATE OF FLORIDA, RESPONDEI\TT

UPON UNOPPOSED MOTION FOR EXTENSION OF TIME TO FILE
PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF

FLORIDA

PROOF OF SER\rICE

I, Karin L. Moore, a member of the Bar of this Court and counsel of record for

the Applicant/Petitioner, Edward Thomas James, hereby certi$'that on October 14,

202t,I

served the Application for an Extension of Time to FiIe a Petition for a Writ

of Certiorari from the Supreme Court of Florida, in compliance with Rule 29 of the

Rules of the Supreme Court of the United States, via Il.S. Mail, fi.rst-class and

postage prepaid, to counsel for respondent, Assistant Attorney General Patrick A.

Bobek, at Office of the Attorney General, Department of Legal Affairs, Capital

Division, 444Seabreeze BIvd Ste 500, Daytona Beach, FL 32118-3951, Tel. No. (386)
238

-

4990 and also by electronic mail at Patrick.Bobek@myfloridalegal.com

1

submitted,

ROBERT S. FRIEDMAN
KARIN L. MOORE
Counsel of Record
Offïce of the Capital Collateral
Regional Counsel - Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0e22
Robert. Frie dman@ccrc-north. org
Karin.Moore@ccrc-north.org

2

